<html>
<title> - THE NEXT MILE: TECHNOLOGY PATHWAYS TO ACCELERATE SUSTAINABILITY WITHIN THE TRANSPORTATION SECTOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                             THE NEXT MILE:
                         TECHNOLOGY PATHWAYS TO
                    ACCELERATE SUSTAINABILITY WITHIN
                       THE TRANSPORTATION SECTOR

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 18, 2019

                               __________

                           Serial No. 116-45

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-663PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           VACANCY
BILL FOSTER, Illinois
SEAN CASTEN, Illinois
                         
                         
                         C  O  N  T  E  N  T  S

                           September 18, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Conor Lamb, Chairman, Subcommittee on 
  Energy, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written statement............................................    15

                               Witnesses:

Ms. Ann M. Schlenker, Director, Center for Transportation 
  Research, Argonne National Laboratory
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. James Chen, Vice President of Public Policy, Rivian 
  Automotive, LLC
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Brooke Coleman, Executive Director, Advanced Biofuels 
  Business Council
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Claus Daniel, Director, Sustainable Transportation Program, 
  Oak Ridge National Laboratory
    Oral Statement...............................................    52
    Written Statement............................................    54

Mr. Tim Cortes, Vice President, Hydrogen Energy Systems, Plug 
  Power, Inc.
    Oral Statement...............................................    66
    Written Statement............................................    68

Discussion.......................................................    78

             Appendix I: Answers to Post-Hearing Questions

Ms. Ann M. Schlenker, Director, Center for Transportation 
  Research, Argonne National Laboratory..........................    98

Mr. James Chen, Vice President of Public Policy, Rivian 
  Automotive, LLC................................................   105

Mr. Brooke Coleman, Executive Director, Advanced Biofuels 
  Business Council...............................................   112

Dr. Claus Daniel, Director, Sustainable Transportation Program, 
  Oak Ridge National Laboratory..................................   118

Mr. Tim Cortes, Vice President, Hydrogen Energy Systems, Plug 
  Power, Inc.....................................................   125

 
                             THE NEXT MILE:
                         TECHNOLOGY PATHWAYS TO
                    ACCELERATE SUSTAINABILITY WITHIN
                       THE TRANSPORTATION SECTOR

                              ----------                              


                     WEDNESDAY, SEPTEMBER 18, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Conor Lamb 
[Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Lamb. Hearing will come to order. Without 
objection, the Chair is authorized to declare recess at any 
time. Good afternoon. Welcome to today's hearing, called ``The 
Next Mile: Technology Pathways to Accelerate Sustainability 
within the Transportation Sector.'' I want to thank all of our 
witnesses for joining us here today. We're obviously discussing 
a critical topic: How to decarbonize, and make more 
sustainable, the cars we use every day--the trucks that handle 
transportation of our manufacturing and other goods all across 
the country, airplanes, trains, ships. It's clear that all of 
this stuff is vital to everyday life, but we have to be smarter 
about it.
    In 2017, transportation overtook electricity as the sector 
of our economy with the highest percentage of greenhouse gas 
emissions, when it got up to 29 percent, and so finding 
pathways to reduce these emissions is essential. It's also 
crucial that we, as leaders, support jobs and industries at the 
same time, and I think we can do that. The R&D (research and 
development) that we're going to talk about here today will 
drive the development of these technologies, improve our 
economy, create new jobs, make us safer, improve national 
security, all while improving the climate.
    Our labs, universities, business, and research institutions 
have all worked on these projects for decades. They've had 
great success, but a lot of the transportation landscape has 
not budged. Henry Ford first sold the Model T just over a 
century ago, and a lot of the cars, trucks, and buses on our 
roads, the vast majority of them still use a similar internal 
combustion engine. Larger vehicles, airplanes, trains, and 
ships, become even more complicated, so that's what we're 
trying to figure out now, is how can we finally drive some 
serious change in this area?
    Scientists have been working hard at it. We've seen huge 
development in growth of clean electric vehicles (EVs) that can 
go hundreds of miles on a single charge. We've seen hydrogen 
vehicles, we've seen hybrid electric, and the demand is 
continuing to go up and up. In 2018, by our figures, more than 
1.7 million plug-in and battery electric vehicles were sold 
worldwide, which is a 40 percent increase in just 1 year. One 
point seven million in 2018 alone, so this is a huge market.
    The Department of Energy (DOE) is researching other 
technologies in this sector as well. Bioenergy Technologies 
Office is working to develop commercially viable biofuels that 
are compatible with the infrastructure that we already have. 
There's a variety of feedstocks being talked about waste 
organic materials, crops grown specifically for this purpose. 
Some of these fuels, known as drop in fuels, are nearly 
identical, but they would burn much more cleanly than existing 
fuels. This means we wouldn't need to make as many changes as 
we would with a purely electric system, and we're going to go 
full speed down both tracks.
    The Fuel Cell Technology Office at DOE is also working to 
develop hydrogen fuel cells, and I'll just put in a plug, 
there's a lot of great work being done at a local university 
for us in Western Pennsylvania, Carnegie-Mellon, and the Scott 
Institute, on the future of hydrogen fuel cell technology. All 
of these things combined will help make our transportation 
sector more sustainable. Although it is incredibly complex, we 
think that, with enough investment on our part, in partnership 
with private sector and nonprofit university partners, we can 
solve this riddle. And I think we have to, because someone will 
solve it. There is enough demand at this point worldwide that 
we know some of our closest competitor nations are doing 
everything they can to dominate the future of electric vehicles 
and similar technologies, and I want the United States to win 
that race. So, very excited to hear from all of you.
    [The prepared statement of Chairman Lamb follows:]

    Good afternoon and thank you to all our witnesses joining 
us here today to discuss a topic that is critical for our 
nation: sustainable transportation. This includes the cars that 
we use every day to drive to work, the trucks that help us 
transport goods across the country, the planes that fly all 
over the world, and the trains and ships that help us get 
products and people to the places they need to be.
    It's clear that transportation is vital to our everyday 
lives. But we need to be smarter about our investments in 
technologies that can help reduce emissions from this sector. 
In 2017, transportation overtook electricity as the sector of 
the U.S. economy with the highest percentage of greenhouse gas 
emissions, accounting for 29% of emissions economy-wide. 
Finding pathways to reduce greenhouse gas emissions from this 
sector is an essential part of solving our climate challenge. 
At the same time, it is incumbent on us to ensure that we are 
leaders in supporting the jobs and industries of the future. 
The research and development of these innovative technologies 
improve our economy, our national security, and our climate. 
That's what we are here to talk about today.
    While our labs, universities, businesses and research 
institutions have worked on these problems for decades - even 
centuries - much of the transportation landscape remains 
unchanged. Ford first sold the Model T just over a century ago 
(1908) and most cars, trucks, and buses on our roads still use 
an internal combustion engine. And with larger vehicles - think 
airplanes, trains, and ships - the problem becomes even more 
complicated.
    Scientists have been working hard to come up with solutions 
that will help these technologies evolve for decades - and we 
need to ensure they can continue doing so. We have seen the 
development and growth of clean electric vehicles that can 
travel hundreds of miles on a single charge, and hybrid 
electric vehicles that can travel even further. Demand for 
electric vehicles is projected to increase in the coming years, 
both worldwide and in the United States and this is already 
growing rapidly: in 2018, more than 1.7 million plug-in and 
battery electric vehicles were sold worldwide - a nearly 40% 
increase over 2017.
    The Department of Energy is researching other technologies 
in this sector as well. For example, the Bioenergy Technologies 
Office is working to develop commercially viable biofuels that 
are compatible with our modern transportation infrastructure. 
These fuels can be made from a variety of feedstocks, including 
waste organic materials or crops grown specifically for 
creating energy. Some of these fuels, known as ``drop-in'' 
fuels, are nearly identical to the fuels they are designed to 
replace, but burn much more cleanly than existing fuels. That 
means we wouldn't need to make any changes to engines, fuel 
pumps, and other vehicle technologies in order to use these 
fuels, while still reaping the benefits.
    The Fuel Cell Technologies Office at the DOE is working to 
develop vehicles that run off of hydrogen fuel cells. These 
fuel cells use hydrogen to produce electricity, which then 
powers an electric motor, similar to how an electric vehicle 
operates. Fuel cell vehicles emit zero carbon; in fact the only 
by-product from these vehicles is water. While hydrogen-powered 
cars are showing promise, hydrogen can be produced in a variety 
of ways and scientists are working hard to identify a cost-
effective, commercial scale method of production that is also 
clean, including through the use of renewables and nuclear 
power.
    Making our transportation sector more sustainable is an 
enormously challenging and complex problem. It requires 
significant investment on our part and coordination across 
government, our labs and universities, and the private sector. 
But it's a must-solve riddle, and I believe it is critical we 
develop and manufacture the answer - these technologies - here 
at home. Doing so is a clear win for our economy, national 
security, and climate.
    I am excited to hear from our excellent panel of witnesses 
assembled here today on their ideas on how to tackle this 
problem, and I look forward to working with my colleagues 
across the aisle to advance legislation on this critical and 
timely topic.

    Chairman Lamb. And now I will recognize my friend and 
colleague, the Ranking Member, Mr. Weber, for an opening 
statement.
    Mr. Weber. Thank you, Mr. Chairman. I apologize for being a 
little late. Appreciate you holding today's hearing. I'm 
looking forward to hearing from our witnesses about innovative 
transportation technologies, and about DOE's research and 
development activities in these areas. The United States 
transportation sector is a critical part of the U.S. economy. 
Annually in the United States, vehicles transport 11 billion, 
with a B, tons of freight, equal to 35 billion, with a B, 
dollars in goods every single day. My District 14 on the Gulf 
Coast of Texas is the 13th largest exporting district in the 
country, so the transport of goods for us is huge.
    Last year, almost one-third of the United States' energy 
consumption was used for the transportation of people and goods 
across the country. Currently this massive energy is met with 
petroleum products, which account for 92 percent of U.S. 
transportation energy use. It's clear, and essential, I might 
add, that we will rely on this incredible resource long into 
the future, so we need to consider this reality as we seek to 
reduce emissions, and grow other energy sources. As energy 
demands increase, American researchers are exploring 
sustainable technologies that will make fossil fuel consumption 
cleaner and more efficient. They'll introduce new fuel pathways 
while maintaining U.S. energy security.
    Industry stakeholders are also prioritizing innovation, 
commercializing electric vehicles, as the Chairman talked 
about, biofuels, and advanced fuel cell technologies. And this 
afternoon we'll hear from some of our friends in these 
successful industries. But although industry is taking 
advantage of incentives to reduce transportation sector 
emissions, the Federal Government still has a significant role 
to play in conducting fundamental research that will, in fact, 
drive innovation in these technologies.
    At the Department of Energy, DOE, sustainable 
transportation R&D is funded through the Department's Office of 
Energy Efficiency and Renewable Energy, or EERE, and carried 
out through its Vehicle Bioenergy and Hydrogen and Fuel Cell 
Technologies Offices. It bears repeating that the EERE is by 
far the Department of Energy's largest applied research 
program. At almost $2.4 billion in annual funding, EERE is 
bigger today than all of the Department's applied R&D programs 
combined. Let me repeat that. At $2.4 billion in annual 
funding, EERE is bigger today than all of the Department's 
applied R&D programs combined. That's huge. Currently the 
sustainable transportation portfolio makes up about a third of 
EERE's budget.
    Today's hearing also provides an opportunity for us to 
discuss potential vehicle technology legislation, H.R. 2170, 
the Vehicle Innovation Act of 2019. This bill would authorize 
modest growth in funding for DOE's vehicle research activities. 
It would support a broad range of research efforts to reduce or 
eliminate vehicle emissions and petroleum usage in the United 
States. And while it should come as no surprise that I don't 
agree with everything in this bill, I'm pleased to see that our 
friends across the aisle are considering a more reasonable 
approach to funding authorization levels. So I look forward to 
the discussion on this bill moving forward, and I want to be 
clear, I support DOE funding for innovative research in 
transportation technologies.
    I'm also supportive of American industry taking the lead, 
and of the kind of basic research that benefits not just 
transportation, but all energy technologies. As we all know, 
the majority of the basic research is carried out in our 
National Labs, so I'm pleased that we will hear from not one 
but two Department of Energy labs today about how American 
researchers are leveraging DOE's unique and unparalleled user 
facilities to drive innovation and transportation technologies. 
For example, at Oak Ridge National Laboratory, researchers have 
access to not only the National Transportation Research Center, 
NTRC, the Nation's only transportation-focused user facility, 
but also the lab's Spallation Neutron Source Center for 
Nanophase Material Science and the Oak Ridge Leadership 
Computing Facility, which currently houses the world's most 
powerful supercomputer.
    When it comes to vehicle technology research, we need to 
look at the big picture, and take the long-term approach. 
Industry simply cannot conduct the fundamental research needed 
for the next technology breakthrough, but industry can get 
these technologies out on the road. By prioritizing the basic 
research capabilities and user facilities that have broad 
applications, we can still enable the private sector to bring 
innovative, new transportation technologies to the market, 
while at the same time advancing science and innovation across 
this American economy.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairman Lamb, for holding today's subcommittee 
hearing. I'm looking forward to hearing from our witnesses 
about innovative transportation technologies, and about DOE's 
research and development activities in these areas.
    The U.S. transportation sector is a critical part of the 
U.S. economy. Annually, in the United States, vehicles 
transport 11 billion tons of freight, equal to $35 billion 
dollars in goods each day. Last year, almost one third of U.S. 
energy consumption was used for the transportation of people 
and goods across the country.
    Currently, this massive energy need is met with petroleum 
products, which account for 92 percent of U.S. transportation 
energy use. It's clear that we will rely on this incredible 
resource long into the future - so we need to consider this 
reality as we seek to reduce emissions and grow other energy 
sources.
    As energy demand increases, American researchers are 
exploring sustainable technologies that will make fossil fuel 
consumption cleaner and more efficient, introduce new fuel 
pathways, and maintain U.S. energy security.
    Industry stakeholders are also prioritizing innovation, 
commercializing electric vehicles, biofuels, and advanced fuel 
cell technologies. And this afternoon, we'll hear from our some 
of our friends in these successful industries.
    But although industry is taking advantage of incentives to 
reduce transportation sector emissions, the federal government 
still has a significant role to play in conducting fundamental 
research that will drive innovation in these technologies.
    At the Department of Energy (DOE), sustainable 
transportation R&D is funded through the Department's Office of 
Energy Efficiency and Renewable Energy (or EERE) and carried 
out through its Vehicle, Bioenergy, and Hydrogen and Fuel Cell 
Technologies Offices.
    It bears repeating that EERE is by far DOE's largest 
applied research program. At almost $2.4 billion in annual 
funding, EERE is bigger today than the all of the Department's 
applied R&D programs combined.
    And currently, the sustainable transportation portfolio 
makes up almost a third of EERE's budget.
    Today's hearing also provides an opportunity for us to 
discuss potential vehicle technology legislation: H.R. 2170, 
the Vehicle Innovation Act of 2019. This bill would authorize 
modest growth in funding for DOE's vehicle research activities, 
supporting a broad range of research efforts to reduce or 
eliminate vehicle emissions and petroleum usage in the U.S.
    And while it should come as no surprise that I don't agree 
with everything in this bill, I am pleased to see that my 
friends across the aisle are considering a more reasonable 
approach to funding authorization levels. So I look forward to 
the discussion on this bill moving forward.
    I want to be clear that I support DOE funding for 
innovative research in transportation technologies. I'm also 
supportive of American industry taking the lead, and of the 
kind of basic research that benefits not just transportation, 
but all energy technologies.
    As we all know, the majority of that basic research is 
carried out in our National Labs. So I'm pleased that we will 
hear from two DOE labs today about how American researchers are 
leveraging DOE's unique and unparalleled user facilities to 
drive innovation in transportation technologies.
    For example, at Oak Ridge National Laboratory, researchers 
have access to not only the National Transportation Research 
Center (NTRC) the nation's only transportation focused user 
facility, but also the lab's Spallation Neutron Source, Center 
for Nanophase Materials Sciences, and the Oak Ridge Leadership 
Computing Facility - which currently houses the world's most 
powerful supercomputer.
    When it comes to vehicle technology research, we need to 
look at the big picture and take the long term approach. 
Industry simply cannot conduct the fundamental research needed 
for the next technology breakthrough. But industry can get 
these technologies out on the road.
    By prioritizing basic research capabilities and user 
facilities that have broad applications, we can still enable 
the private sector to bring innovative new transportation 
technologies to the market, while advancing science and 
innovation across the American economy.

    Chairman Lamb. Thank you. Now recognize Chairwoman Johnson 
for an opening statement.
    Chairwoman Johnson. Thank you very much, Mr. Chairman, and 
good afternoon. Let me thank you for holding this timely 
hearing on how we can best accelerate the sustainability of our 
Nation's transportation sector. I'd also like to join you in 
welcoming this distinguished panel of witnesses to the hearing 
today.
    This Committee recently held a hearing where we discussed 
the need for a national surface transportation agenda. Today's 
hearing expands upon our commitment to addressing the 
environmental impacts of transportation in order to mitigate 
its impacts on climate change and air pollution. While there 
are many exciting developments in sustainable transportation 
such as electric cars, alternative fuels, and new concepts of 
mass transit systems, there are also many barriers to these 
technologies that we as a country must work to overcome. That's 
why this hearing is so important.
    The transportation sector's carbon emissions are largely 
attributable to petroleum-based fuels. A transition to a mix of 
low-carbon fuels and electricity could reduce these emissions 
by more than 80 percent, and eliminate petroleum use almost 
entirely. According to the Department of Energy's Vehicle 
Technologies Office, while researchers believe that this is 
technically feasible with technologies that already exist 
today, further R&D will be critical to reducing their cost, and 
improving their reliability and scalability to meet our 
economic, environmental, and mobility needs.
    As I have stated before, my hometown of Dallas is a hub for 
air travel and freight--two forms of transportation that are 
particularly challenged to decarbonize. Those sources of 
emissions are projected to grow in coming years, as the demand 
for travel and goods steadily increases. For example, emissions 
from aviation currently account for almost 3 percent of the 
total global emissions. However, based on current aviation 
trends, it could grow to be above 4 percent by 2040, 
representing 14 percent of the transportation sector emissions. 
That number may sound inconsequential, but it is significant 
when you consider the amount of emissions we must reduce to put 
us on a path to limit global warming in this century.
    As I know we'll hear more about from today's panel, several 
of our National Labs and private companies are dedicated to 
providing solutions to these very challenges, but Congress must 
also act and allocate low-carbon R&D funding to further drive 
innovation within this sector. So I look forward to this 
discussion, and to working with my colleagues on both sides of 
the aisle, as we consider ideas to better support the 
Department of Energy's research and development activities in 
this crucial area. I thank you, and yield back.
    [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon and thank you, Chairman Lamb, for holding 
this timely hearing on how we can best accelerate the 
sustainability of our nation's transportation sector. I also 
would like to join you in welcoming this distinguished panel of 
witnesses to today's hearing.
    This Committee recently held a hearing where we discussed 
the need for a national surface transportation agenda. Today's 
hearing expands upon our commitment to addressing the 
environmental impacts of transportation in order to mitigate 
its impacts on climate change and air pollution. While there 
are many exciting developments in sustainable transportation, 
such as electric cars, alternative fuels, and new concepts for 
mass transit systems, there are also many barriers to these 
technologies that we as a country must work to overcome. That's 
why this hearing is so important.
    The transportation sector's carbon emissions are largely 
attributable to petroleum-based fuels. A transition to a mix of 
low carbon fuels and electricity could reduce these emissions 
by more than 80 percent and eliminate petroleum use almost 
entirely, according to the Department of Energy's Vehicle 
Technologies Office. While researchers believe that this is 
technically feasible with technologies that already exist 
today, further R&D will be critical to reducing their costs and 
improving their reliability and scalability to meet our 
economic, environmental, and mobility needs.
    As I have stated before, my hometown of Dallas is a hub for 
air travel and freight - two forms of transportation that are 
particularly challenging to decarbonize. Those sources of 
emissions are projected to grow in coming years as the demand 
for travel and goods steadily increases. For example, emissions 
from aviation currently account for almost 3% of total global 
emissions. However, based on current aviation trends it could 
grow to above 4% by 2040, representing 14% of the 
transportation sector emissions. That number may sound 
inconsequential; but it is significant when you consider the 
amount of emissions we must reduce to put us on a path to limit 
global warming this century.
    As I know we'll hear more about from today's panel, several 
of our National Labs and private companies are dedicated to 
providing solutions to these very challenges. But Congress must 
also act and allocate low-carbon R&D funding to further drive 
innovation in this sector. So I look forward to this 
discussion, and to working with my colleagues on both sides of 
the aisle, as we consider ideas to better support the 
Department of Energy's research and development activities in 
this crucial area.
    Thank you and I yield back.

    Chairman Lamb. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time I'd like to introduce our witnesses. First, 
Ms. Ann Schlenker is the Director of the Center for 
Transportation Research at Argonne National Lab. Her 
responsibilities include evaluating the energy and 
environmental impacts of advanced technology and new 
transportation fuels. Ms. Schlenker's portfolio includes light- 
and heavy-vehicle research, with an emphasis on low-carbon 
solutions. She also helps to lead the DOE student vehicle 
competitions for advanced powertrain technologies in connected 
and automated vehicles. Before her position at Argonne, Ms. 
Schlenker worked for Chrysler for more than 30 years.
    We also have Mr. James Chen, the Vice President of Public 
Policy at Rivian Automotive, where he oversees policy issues, 
and is tasked with oversight of regulatory requirements 
applicable to Rivian's products and facilities. Before his 
position at Rivian, Mr. Chen worked at the EPA (Environmental 
Protection Agency), and spent 6 years at Tesla, where he held 
the position of Vice President of Regulatory Affairs and Deputy 
General Counsel.
    Mr. Brooke Coleman is a co-founder and Executive Director 
of the Advanced Biofuels Business Council (ABBC), whose 
membership includes companies in the advanced biofuels and 
cellulosic ethanol sectors. The ABBC's mission is to support 
the development and commercialization of the next generation of 
biofuels and bio-based products.
    Dr. Claus Daniel is the Director of Sustainable 
Transportation Program at Oak Ridge National Laboratory. Oak 
Ridge's sustainable transportation researchers support the 
development of a range of technologies to improve the energy 
efficiency of light-, medium-, and heavy-duty vehicles. Dr. 
Daniel is a materials scientist by training, with over 20 years 
of experience in the automotive technologies sector.
    The Chair now welcomes Mr. Tonko to the Energy Subcommittee 
for the day, and recognizes him to introduce our last witness, 
Mr. Cortes. And although it is welcome for the day, sir, you 
will always be welcome back, and we would even consider you for 
full admission--based in part on your performance today.
    Mr. Tonko. Thank you. Music to my ears. Thank you, Mr. 
Chair. It is my honor to introduce Tim Cortes, the Vice 
President of Hydrogen Energy Systems at Plug Power, a leader in 
commercially viable fuel cell systems based in the Capital 
Region of New York. With proven hydrogen and fuel cell 
products, Plug Power replaces lead/acid batteries to power 
electric industrial vehicles, such as the lift truck customers 
use in their distribution centers. They're headquartered in the 
20th congressional District in Latham, New York, and have 
facilities in Spokane, Washington; Rochester, New York; Dayton, 
Ohio; Romeoville, Illinois; and Montreal, Canada.
    Tim Cortes joined Plug Power as Vice President of Hydrogen 
Energy Systems in January 2015. In this role my friend, Mr. 
Cortes, is responsible for overseeing the gen fuel business, 
including interactions with customers, partners, and suppliers 
critical to increasing Plug Power's growing market share within 
the hydrogen fuel industry. Prior to joining Plug Power, Mr. 
Cortes served as Chief Technology Officer and Vice President of 
Engineering at Smith's Power. In these positions, he was 
responsible for research and development, as well as solutions 
for global applications. During his tenure at Smith's Power, 
Mr. Cortes led product line expansion that resulted in a 
doubling of revenue growth in less than 6 years.
    Tim has worked in the development of critical power 
infrastructures in both the data center and telecommunications 
markets, including positions with AT&T Bell Labs, GNB/XI 
Technologies, and Power Distribution, Incorporated. He received 
his bachelor of science in electrical engineering from New 
Mexico State University, and he holds several patents in power 
system architecture. In 2016, Food Logistics named him the rock 
star of the supply chain for his work making it possible for 
smaller truck fleets to adopt hydrogen fuel cell technology. 
And I'm proud that our Capital Region's own Plug Power 
continues to build success as a leader in clean energy in New 
York, and throughout the country, and thank Tim for his 
leadership, and welcome him to the panel today. Thank you, Tim. 
Thank you, Mr. Chair. I yield back.
    Chairman Lamb. And thank you. As our witnesses should know, 
you will each have 5 minutes for your spoken testimony. Your 
written testimony will be included in full in the record of the 
hearing. When you have completed your spoken testimony, we'll 
start with questions, and each Member will have 5 minutes to 
question the panel. We will start now with Ms. Schlenker.

                 TESTIMONY OF ANN M. SCHLENKER,

         DIRECTOR, CENTER FOR TRANSPORTATION RESEARCH,

                  ARGONNE NATIONAL LABORATORY

    Ms. Schlenker. Chairwoman Johnson, Ranking Member Lucas, 
Chairman Lamb, Member Weber, and Members of the Subcommittee, 
thank you for this opportunity today. It is my honor to talk to 
you about how the U.S. Department of Energy National 
Laboratories are helping realize the goal of sustainable 
transportation. I'm Ann Schlenker, and I'm privileged to lead 
the Argonne Center for Transportation Research just outside of 
Chicago.
    Multiple DOE offices, including the Office of Energy 
Efficiency and Renewable Energy, fund important research and 
development at the component, the vehicle, and the 
transportation system levels. DOE National Laboratories create 
new knowledge; develop, enhance, and analyze automotive medium-
duty and heavy-duty truck technologies; and create new tools. 
The research spans conventional internal combustion engines, 
hybrid electric systems, battery electric vehicles, fuel cell 
electric vehicles, and off highway applications.
    At the level of vehicle components, the labs develop and 
de-risk battery technologies. We test new batter materials, 
develop scale-up processes for the most promising ones, and 
ultimately hand that off to industry. Argonne's cell analysis 
modeling and prototyping camp facility, as an example, has 
worked with more than 4 dozen industrial partners, from 
startups to Fortune 500 companies. Our research also 
encompasses the entire battery lifespan. In February of this 
year, DOE established a battery recycling center at Argonne 
with many partners to develop, and reclaim, and recycle 
critical materials and components from lithium-based battery 
technology to recover the economic value.
    Combustion engines still power the majority of our Nation's 
vehicles. Laboratory research provides deep insights into our 
combustion processes so we can achieve predictable and reliable 
engine performance with the lowest possible environmental 
footprint. Researchers use sophisticated tools, like the 
advanced photon source at Argonne, to peer into fuel spray 
streams to optimize the mixture delivery for cleaner ignition 
processes. They apply high performance computing capabilities 
and artificial intelligence techniques to in-house developed 
computational fluid dynamic codes in order to better understand 
the combustion variability from cycle to cycle, and then 
transfer this knowledge to industry.
    National Laboratory researchers investigate the complete 
supply chain of biofuel production, from farm to wheels, to 
assess the energy consumption and environmental impacts of 
fuels used in ground transportation, aviation, and the marine 
sector. This life cycle analysis uses Argonne's GREET 
(Greenhouse gases, Regulated Emissions, and Energy use in 
Transportation) model, which enables this fuel comparisons. 
Fuel cell and hydrogen technology investigations extend from 
materials to components in vehicle, and seek to improve 
performance, durability, and cost. New approaches to renewable 
hydrogen production as an industrial fuel choice, paired with 
fuel cell vehicle development, have the potential to create 
market demand.
    National Laboratories research at the vehicle level 
includes technology to integrate electric vehicles with the 
grid, and enable faster charging. At the Smart Energy Plaza at 
Argonne, researchers work to verify the interoperability of 
chargers in cars. Extreme fast charging and megawatt charging 
will enable longer distance electric travel, making medium-duty 
and heavy-duty vehicles more marketable.
    Finally, National Laboratories are experts in the vital 
study of vehicles within a system. The Labs collaborate, and I 
co-chair, the DOE Systems and Modeling for Accelerated Research 
in Transportation, or the Smart Mobility Consortia, and we 
focus on connecting automated vehicles, the built environment, 
alternative fuel infrastructure, freight and goods delivery, 
and decision science. We use models and field experiments to 
study the effects of not only advanced vehicles with the 
infrastructure technologies, but also the impacts of new 
business models and modes of transportation. The result is a 
greater understanding from the vehicle to the city level.
    An example of a key insight from this work is really the 
consumer appetite for e-commerce as a replacement to shopping 
trips. One might guess that the frequent trips of an Amazon or 
FedEx delivery truck to your house results in a net energy 
penalty. However, system analysis shows the inverse is actually 
true. Avoiding a personal shopping trip in the family car for 
the average 8-mile trip, as compared to an efficient package 
delivery system, saves overall vehicle miles traveled and 
energy used. Combining the DOE National Laboratories 
computational horsepower with our capabilities in artificial 
intelligence, Big Data, computation, and predictive analytics 
gives lab researchers and their partners a scenario-based 
framework to analyze potential mobility futures.
    The National Laboratories and their facilities are 
America's powerhouses of science, technology, and engineering. 
They are principle agents of execution in missions of national 
importance. I am proud to be a member of the National 
Laboratories sisterhood. Thank you for your time, and I welcome 
your questions.
    [The prepared statement of Ms. Schlenker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Mr. Chen?

                    TESTIMONY OF JAMES CHEN,

                VICE PRESIDENT OF PUBLIC POLICY,

                     RIVIAN AUTOMOTIVE, LLC

    Mr. Chen. Thank you. Good afternoon, Chairwoman Johnson, 
Chairman Lamb, Ranking Member Weber, Members of the Committee 
and the Subcommittee. My name is James Chen, and I'm the Vice 
President of Public Policy for Rivian Automotive. I wish to 
thank the Committee for the opportunity to testify today on 
technology pathways to accelerate sustainability in the 
transportation sector. I've submitted my written testimony, and 
will summarize the points briefly in this verbal testimony.
    Founded in 2009, Rivian is an independent U.S. company 
dedicated to keeping the world adventurous through the 
development, production, and distribution of all electric 
pickup trucks and sport utility vehicles, or SUVs. Scheduled to 
commence production next year from our Midwest manufacturing 
facility, the R-1T pickup truck, and the R-1S SUV, will have a 
number of compelling features, including a range of up to 400 
miles on a single charge; quad-motor all wheel drive; a 0 to 60 
time of 3 seconds; 11,000 pound towing capability; and the 
ability to forge through 3-feet of water safely due to the 
sealed components. These are among many of the other features 
we have built into the vehicle. Backed by strategic investors 
that include Amazon, Inc., Ford Motor Company, and most 
recently Cox Automotive, we employ over 750 people currently at 
our various U.S. locations in Plymouth, Michigan; Normal, 
Illinois; and several locations throughout California.
    Rivian's products are being developed and released as part 
of the technology revolution in transportation. In fact, 
vehicle electrification is the platform that will enable the 
development, optimization, and introduction of new 
transportation technologies such as, and including, 
connectivity and autonomy. The benefits of electrification are 
numerous, and, the Chairman, you had mentioned quite a few of 
these: Reducing dependence on foreign oil, promoting use of 
domestically produced electricity, national security, energy 
independence, a strong economy, and a cleaner environment.
    Of these many benefits, three of the key benefits include 
the following, that I would like to highlight. First, 
leadership in technology. Lithium-ion battery technology was 
invented by an American scientist, now a professor at the 
University of Texas in Austin. Use of this technologies in cars 
was pioneered and matured by American companies. The U.S. 
cannot cede leadership and control of this technology to 
foreign countries, who are spending billions, literally 
billions of dollars, to foster and dominate this transportation 
technology in their own countries.
    Second, maintaining this leadership is good for the 
economy. Using Rivian as an example, we purchased the formerly 
shuttered Mitsubishi manufacturing plant in Normal, Illinois 
back in 2017, less than a year after it shut down. We have 
already spent tens of millions of dollars in equipment and 
labor to rehabilitate that facility. When all is said and done, 
we will have spent over $400 million to rehabilitate this 
former facility. We will create over 1,000 manufacturing jobs, 
and we'll be producing, with luck, several hundred thousand 
vehicles out of this facility. Supporting EV technology 
increases investment in the United States, creating economic 
opportunity, and jobs in America.
    Finally, electric vehicles are good for the environment. 
Every electric pickup truck and SUV supplants its internal 
combustion engine-equipped counterpart, lowering the emission 
of criteria pollutants and greenhouse gases. Minimizing 
emissions have very real benefits to public health, by lowering 
the causes of asthma, and other respiratory-related illnesses. 
Introducing electric vehicles reduces greenhouse gases. With 7 
of the last 10 years being the warmest on record globally, we 
must do more to reduce greenhouse gases, and mitigate the 
effects of climate change.
    While some critics of electric vehicles complain that the 
technology merely shifts the emissions from the vehicles to 
power plants at a greater level, this is simply not true. 
Several studies, including a BloombergNEF study from just last 
year, shows that, on average, carbon dioxide from battery 
electric vehicles are about 40 percent lower than their 
internal combustion engine counterparts, even when including 
the emissions from power plants providing the electricity for 
these vehicles. And the vehicle emission profile only becomes 
cleaner over time as power plants improve emission controls, 
include a greater mix of generation of sources, including 
renewables.
    In conclusion, the U.S. is best served by robust investment 
and support of transportation electrification technologies. 
Congress has a strong role to play in promoting R&D in this 
technology, and supporting the manufacture and market 
introduction of this American innovation. Thank you again for 
this opportunity to testify today. I look forward to your 
questions.
    [The prepared statement of Mr. Chen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Mr. Coleman?

                  TESTIMONY OF BROOKE COLEMAN,

                      EXECUTIVE DIRECTOR,

               ADVANCED BIOFUELS BUSINESS COUNCIL

    Mr. Coleman. Thank you. Good afternoon, Chairman Lamb, 
Ranking Member Weber, Members of the Subcommittee. My name is 
Brooke Coleman. I am the Executive Director of the Advanced 
Biofuels Business Council. The Council represents worldwide 
leaders developing and commercializing next-generation advanced 
and cellulosic biofuels, ranging from cellulosic ethanol made 
from agricultural residues to advanced biofuels made from 
sustainable energy crops and municipal solid waste.
    Let me start by thanking the Committee and staff for 
looking at the question of how we are going to make the 
transportation sector more sustainable. As you know, the 
transportation sector now emits more carbon than any other in 
the United States, and yet, take it from the biofuels industry, 
it is not an easy sector to disrupt. One of the underlying 
challenges we face on the fuel side is the unfortunate reality 
that fuel markets are not free markets. They are highly 
subsidized, vertically integrated, and consolidated. That makes 
Federal agency engagement, from R&D, to loan guarantees, to 
vehicle readiness, much more difficult. The corrective policies 
driving demand for us, like the renewable fuel standard, must 
move together with front-end technological development and 
back-end market readiness related to vehicles, pumps, and fuels 
to be optimized. If one piece falls out, commercial deployment 
slows, sometimes to a grind.
    This is where we find ourselves with many advanced biofuel 
technologies. DOE, together with USDA (U.S. Department of 
Agriculture), was instrumental in pushing cellulosic biofuels 
forward. We are producing commercial volumes now, but we are 
also grinding on the scaling side, largely because the demand 
side part of the equation faltered. And I know this isn't an 
RFS hearing, but EPA did stop enforcing the RFS for 3 years, 
starting in 2013, then destroyed four billion gallons of 
policy-driven demand thereafter with the oil refinery waivers 
you're reading about in the news today. It's just hard to hit 
milestones when the demand-side policy isn't enforced, and it's 
hard to expect DOE to absorb 100 percent of that demand risk.
    So the question is, where do we go from here? First and 
foremost, and I'm not just saying this because I'm bookended by 
them, we need robust support from the National Labs. This is, 
to set the record straight, what is actually happening type of 
work essential for emerging industries trying to break through 
information warfare campaigns designed to impede important 
change. I cannot tell you the number of times I have cited, and 
my community has cited, vehicle emissions testing led by NREL 
(National Renewable Energy Laboratory), carbon modeling led by 
Argon, and compatibility analysis led by Oak Ridge to set the 
record straight against industry-funded misinformation 
campaigns.
    Second, programs designed to showcase, perhaps at smaller 
scale, what can be done in the near term are invaluable. The 
Co-Optima Program is one example. To my knowledge, ethanol is 
the only cost-reductive technology available today in the 
transportation sector to reduce GHG emissions. Optimizing its 
use leverages a global competitive advantage that we have in 
agriculture, and supports rural American economies struggling 
under the weight of trade wars, more extreme weather, and 
urbanization. We need to harvest ready-made solutions if we're 
going to harness the full potential of biomass to displace or 
compete with petroleum.
    Demonstrations on the crop side are also valuable. When 
implemented, the Biomass Research and Development Initiative 
showcased the degree to which land management practices can 
reduce carbon emissions, while improving bottom lines. New 
initiatives could be patterned after the Novozymes Acre Study, 
which demonstrated the viability of boosting feed, fuel, and 
energy derived from one acre of corn, while avoiding 1.1 metric 
tons of CO<INF>2</INF> emissions.
    Finally, there's the question of where best to engage, and 
it's a difficult question, on the commercial deployment side. 
For many of our companies it's all about deployment. There's a 
big difference between testing a new enzyme at small scale and 
throwing it into your main fermenter that you rely on every day 
to pay the bills. There's a difference between turning a bale 
of stover into cellulosic ethanol, which we've done many times, 
and turning a conveyor belt of stover into cellulosic ethanol.
    Many of our companies simply don't have the staff, time, 
and resources to do the planning, engineering, and 
implementation of plant-scale testing necessary to deploy new 
technology. The expense of outsourcing stalls the deployment of 
integrative biorefining technologies that we know to work. 
That's the sweet spot for expenditure of applied deployment 
dollars and agency time for us. Of course, excuse me, many 
staff, including DOE staff, understand this because they ran 
programs just like this for several years. An important 
adjustment going forward would be to balance the desire to 
focus on ultra new technologies, and overly constrained 
categories like ``non-food'' with engagement with ready-made 
solutions at existing plants that could produce transformative 
results in the immediate term. There are just too many clear 
benefits of using commercially available and abundant 
agricultural feed stocks for renewable chemicals, biodegradable 
plastic, and new fuels, while meeting demand for food and feed.
    I will also close with a brief appeal. It's not always 
about budget. We have American-made, deployment-ready, low-
carbon bioenergy solutions unnecessarily parked as we speak. 
DOE has been very supportive of reviewing testing protocols to 
determine how much corn fiber cellulosic ethanol conversion we 
are getting out of our processes. This is a fuel with a 126 
percent benefit over petroleum. From a greenhouse gas 
perspective, a true carbon sink. We don't need technological 
breakthrough there. We need EPA to cut these technologies 
loose. And if DOE is qualified, and certainly they are, to 
engage with us on the testing side, they are more than 
qualified to engage with EPA, their counterparts, in getting 
these fuels out the door. Thank you very much. We appreciate 
the opportunity to be here today.
    [The prepared statement of Ms. Coleman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. Dr. Daniel?

                 TESTIMONY OF DR. CLAUS DANIEL,

         DIRECTOR, SUSTAINABLE TRANSPORTATION PROGRAM,

                 OAK RIDGE NATIONAL LABORATORY

    Dr. Daniel. Chairwoman Johnson, Ranking Member Lucas, 
Chairman Lamb, Ranking Member Weber, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear 
before you today. I'm Claus Daniel, Sustainable Transportation 
Program Director for Oak Ridge National Laboratory. Today I 
will address the important role that the scientific 
capabilities and expertise of DOE's National Laboratories play 
in accelerating innovations for an efficient, secure, and 
sustainable transportation system.
    Rapidly advancing technology and increased urbanization are 
changing mobility in fundamental ways. Growing traffic 
congestion, higher fatalities, and pollution concerns are some 
of our greatest challenges. Oak Ridge has a rich portfolio of 
materials, chemistry, computing, and biological scientists who 
work closely with DOE's Sustainable Transportation Program to 
improve energy efficiency and fuel economy for light-, medium-, 
and heavy-duty vehicles and mobility systems.
    Thanks to the Nation's investments, Oak Ridge is home to 
several facilities that help accelerate our scientific 
breakthroughs, and I want to thank Ranking Member Weber for 
recognizing some of them. DOE's largest materials R&D program, 
supporting scientific user facilities focused on understanding, 
developing, and advancing materials, such as the Spallation 
Neutron Source and the Center for Nanophase Material Science. 
The Oak Ridge Leadership Computing Facility, as you mentioned, 
which hosts the world's most powerful supercomputer summit, 
with growing capabilities in artificial intelligence and 
machine learning. The National Transportation Research Center, 
the Nation's only transportation-focused user facility, and the 
Center for Bioenergy Innovation, one of four DOE centers 
created to lay the scientific groundwork for a bio-based 
economy. Today I'll cite two examples: One on materials and one 
on mobility, in which we've leveraged these remarkable assets 
in collaboration with industry, academia, and other National 
Laboratories to solve problems in the transportation sector.
    First, we worked with Fiat-Chrysler and Nemak to develop a 
new alloy for use in more efficient engines that operate at 
high temperatures. Using supercomputers, we accelerated the 
development of the new alloy in only 4 years, versus what 
normally takes decades. The new alloy is affordable, easy to 
cast, and can withstand temperatures nearly 100+ C higher than 
traditional aluminum alloys. Our cast engine has surpassed all 
expectations.
    Second, Chattanooga, Tennessee is one of the Nation's 
busiest traffic corridors, with highly instrumented roadways. 
Here we're working with collaborators to use our artificial 
intelligence capabilities to discover ways to ease traffic 
congestion and cut fuel consumption by at least 20 percent. 
We're building a digital twin, a real-time living simulation of 
all traffic.
    Moving into the future, we will install Frontier, an 
exascale computer, able to solve calculations up to 50 times 
faster than today's top machines, exceeding one quintillion 
calculations per second, and accommodating much more complex 
simulations. We believe we can take what we learn in 
Chattanooga and apply it to solve issues in larger regions, and 
guide solutions on a national scale, and help hubs, such as 
Chairwoman Johnson's home airport. Further, we can use 
artificial intelligence to create simulations of materials and 
fuels in real-world conditions, analyzing the behavior and 
actions of millions of atoms under realistic duty cycles. We're 
also working on a second target station at the Spallation 
Neutron Source that will offer up to 1,000-times higher 
performance, with a pulse brightness 25-times greater than 
currently available. We can probe the structure and function of 
new complex materials in devices like batteries, ultra-
efficient engines, and aircraft turbines at a faster pace.
    Our nation has wisely invested resources in developing 
these unparalleled capabilities to support basic science 
breakthroughs that translate into real-world results. We look 
forward to continuing our scientific pursuit in support of a 
safer, more efficient, and sustainable transportation system 
for the Nation's prosperity and security. Thank you for this 
opportunity, and I welcome your questions on this important 
topic.
    [The prepared statement of Dr. Daniel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. And Mr. Cortes?

                    TESTIMONY OF TIM CORTES,

            VICE PRESIDENT, HYDROGEN ENERGY SYSTEMS,

                        PLUG POWER, INC.

    Mr. Cortes. Good afternoon. Thank you, Chairwoman Johnson, 
Chairman Lamb, Ranking Member Weber, and the entire 
Subcommittee, for inviting me to testify before you today 
regarding sustainable transportation, and the work that is 
going on in the U.S. Department of Energy's Fuel Cell 
Technologies Office. I am excited to discuss the role that 
hydrogen fuel cell technology is playing in sustainable 
transportation, and share my perspective on how Congress and 
the Federal Government can enable even greater progress through 
this pathway.
    In our core technology platform, Plug Power replaces lead-
acid batteries with fuel cells to power electric industrial 
vehicles, such as forklifts, that customers use in their 
distribution centers and warehouses. We have unmatched field 
experience, with over 28,000 fuel cells in the field, many in 
your congressional districts. We have installed over 80 
hydrogen fueling stations in more than 30 States across the 
United States. Our CEO, Andy Marsh, is the Chairman of the Fuel 
Cell and Hydrogen Energy Association, and serves on the 
Hydrogen and Fuel Cell Technical Advisory Committee, which 
provides technical and programmatic advice to the Energy 
Secretary on DOE's hydrogen research, development, and 
demonstration efforts.
    Plug Power also participates on the Hydrogen Council, which 
is a global initiative of 60 leading energy transport and 
industry companies with the united vision and long-term 
ambition for hydrogen to foster the energy transition. The 
council estimates that by 2050, hydrogen can help cut global 
CO<INF>2</INF> emissions by as much as 20 percent, with 
substantial reductions coming from the transportation sector. 
In September 2018, the council adopted a goal to completely 
decarbonize the production process for hydrogen transportation 
fuel by 2030. Plug Power looks forward to working with the 
industry partners, and leveraging support for public sector, to 
achieve these goals.
    The United States has a long history in leadership role in 
fuel cells. When the Apollo 11 mission put a man on the moon in 
1969, the command module's primary source of electricity and 
drinking water was from fuel cells. Since then, American 
scientific and industrial ingenuity has ensured that our 
country became the global leader in hydrogen and fuel cell 
technologies. This could not have been accomplished without the 
support and dedication of the U.S. Government, including from 
this Committee.
    Today's Federal support primarily comes from the Fuel Cell 
Technologies Office housed within the Department of Energy's 
Office of Energy Efficiency and Renewable Energy. The program 
leverages the resources of our National Laboratories and 
partnerships with private sector, including Plug Power, to 
research, develop, and demonstrate innovative, efficient 
solutions for advancing fuel cell systems and hydrogen energy. 
The results speak for themselves, with the United States 
leading the world in deployments of zero emissions hydrogen 
fuel cell forklifts and light duty cars. Additionally, the 
American hydrogen and fuel cell industry continues to push 
forward with novel applications for these technologies, such as 
heavy-duty trucking, maritime vessels, port vehicles, drones, 
military equipment, and more.
    Plug Power has been working with the DOE since the 
company's inception to advance our innovative fuel cell 
solutions. This started with basic research and development 
projects, which led to proving the feasibility and utility of 
powering material handling equipment with hydrogen fuel cells 
and stationary systems for primary backup power. Once these 
first-generation systems were ready for deployment, DOE's 
Market Transformation activities accelerated cost reductions, 
and promoted customer acceptance for this new alternative 
energy technology. Thanks to these efforts, Plug Power was able 
to establish initial relationships with customers, help the 
company significantly expand, and create an entire new market 
for hydrogen fuel cell systems.
    Today Plug Power continues to work with the DOE to further 
improve the efficiency of these systems, scale up the 
production of hydrogen fuel, bring advanced manufacturing 
processes for our technology from the laboratory to the 
factory, and introduce hydrogen fuel cells to new markets and 
applications. Plug Power is very appreciative of DOE's 
Hydrogen-at-Scale concept, and this program explores the 
potential for wide scale hydrogen production and utilization in 
the United States by leveraging resources from the Department, 
National Labs, and array of diverse domestic industries that 
can produce and utilize hydrogen fuel. Unfortunately, Plug 
Power is not currently participating in <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="216913617242404d44">[email&#160;protected]</a>, but we are 
hopeful DOE will embrace our priority, since we are the leading 
user of liquid hydrogen in the United States.
    With today's urgent focus to mitigate climate change, 
industrial countries are recognizing the critical role that 
hydrogen and fuel cells can play in decarbonization policies 
across sectors. In just the past few years, other countries, 
including China, and other developed nations, have put forth 
and implemented funds and plans worth billions of dollars to 
accelerate deployment of these technologies, especially in the 
transportation sector. To ensure the United States does not 
fall behind in the global leadership in hydrogen and fuel cell 
technologies, Congress and the Executive Branch must ensure 
policies and incentives are available to American industry to 
accelerate further deployment.
    America's approach to sustainable mobility needs to 
incorporate hydrogen fuel and fuel cell systems into our energy 
strategy. In our written testimony, you can find detailed 
recommendations supporting the creation of these policies that 
will allow for scale of infrastructure necessary to facilitate 
the widespread adoption of fuel cells. Thank you for the 
opportunity to participate in this hearing, and giving Plug 
Power the opportunity to talk about sustainability, 
transportation, fuel cells, and hydrogen technologies.
    [The prepared statement of Mr. Cortes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Lamb. Thank you. We'll now begin with our 
questions, and I'll take the first round for 5 minutes.
    Mr. Chen, I wanted to ask you a little bit about kind of 
how we got to where your company is today, and the role of 
government in all that. You know, one of the things we're 
trying to figure out here is exactly how to spend the research 
dollars that we have, in addition to how much we have to spend, 
and you quoted, I think, the figure of what China has spent 
just on electric vehicles alone, something like $60 billion. So 
it shows you the overall amount is really important, I think. 
But are there connections between some of the Federal research 
and how your company was founded? Was the founder, at MIT, ever 
supported by Federal research, or can you give us any examples 
of that?
    Mr. Chen. Yes. So R.J. Scaringe, our founder, as you 
mentioned, is a Ph.D. mechanical engineer out of MIT. He was a 
member of the Sloan Automotive Laboratories, so to the extent 
that there was any government involvement, I am not aware of 
any direct government involvement, but the investment that is 
made into DOE to look into these types of technologies 
certainly is something that raises the entire industry, and 
awareness of electric and battery technology.
    Chairman Lamb. Andit may be as simple as the fact that one 
of DOE's big investments was in Tesla, which obviously advanced 
the whole field of battery technology forward, and I'm sure was 
in some way a side benefit to you all.
    On the topic of the lithium-ion battery technology, you 
rightly raised the fact that China is leading in that area, and 
I saw some figures from Bloomberg that suggested they could 
have 3/4 of the world market by 2021, which is not what we 
want, and we're not feeling optimistic on this side about how 
we would grow our own market in that. So do you have any ideas 
or thoughts about what we would do to level that playing field, 
or create an insurance policy for ourselves against China 
dominating that area?
    Mr. Chen. Well, I think there are a number of programs that 
could certainly help in that area. I think H.R. 2170 is a good 
start. As I reviewed the provisions of that bill, it talked not 
only about research and development into lithium-ion battery 
technology, but support of creating manufacturing jobs, or 
industries that were creating manufacturing jobs in the United 
States. You mentioned earlier the Tesla loan from the DOE ATVM 
(Advanced Technology Vehicles Manufacturing) Program. Certainly 
that was a huge catalyst for Tesla to make a leap forward.
    As you noted earlier in my bio, that I was with Tesla at 
that time, and folks will remember in 2008 the credit markets 
were completely locked up. There was no place to get money due 
to the Great Recession, so the DOE loan to Tesla really was the 
financial impetus that allowed that company to move forward 
with the Model S, which was the very first ground-up all 
electric vehicle developed and manufactured in the United 
States. That led to the Model X, and later to the Model 3, all 
while driving down the costs of the battery.
    So I think there is a number of different areas where 
government could play in. Incentivizing manufacturing, the DOE 
ATVM Loan Program, which I understand is still in existence, 
that can certainly support it, R&D, and then, of course, 
incentives such as the IRC 30(d) tax credit (Plug-In Electric 
Drive Vehicle Credit), which I understand is also being 
considered for expansion. These are all the types of programs 
that I think can help both drive R&D, manufacturing, and demand 
and acceptability of these technologies.
    Chairman Lamb. Absolutely. Thank you. And, Mr. Coleman, you 
kind of closed with a point about how it's not all about 
budget. I think it is largely about that. It's the creation of 
the market, and the creation of demand, that seems to be the 
biggest factor for a lot of these things at the end of the day. 
But could you just kind of use my remaining minute to expand on 
that point a little bit, involving the struggles with the EPA, 
and sort of what we could do outside the budget process to help 
strengthen that demand or market?
    Mr. Coleman. Yes. I appreciate the question, thank you. So 
we're at that point, in our industry, where we've been around a 
little while. We've moved through the R, and then the D, and 
we're probably on the last D, on the deployment side. And what 
happens to us often is we get to that point, and people say 
it's the Valley of Death or whatever. It's the market 
deployment side of things. And because energy markets are 
regulated, it's like driving, you've got to show up with a 
license plate, you've got to have a registration, and you've 
got to have an inspection sticker. And if you don't have one of 
those things, and you try to drive around, you're in trouble.
    And what happens to us is we often have to navigate the 
inter-agency process, and one of those things will hang us up. 
And so what's happening to us right now on this ultra low-
carbon fuel is we have a pathway for corn fiber. And for those 
of you who don't spend all day on biofuels, corn fiber's just 
the hard, viscous part of the outside of the corn kernel. 
That's a cellulose feed stock. It's already at the grain door, 
and we can produce this stuff commercially. It's hundreds of 
millions of gallons of ultra low-carbon fuel, and we can't get 
essentially a registration from EPA to put this out and create 
a value-added integrated biorefining reality.
    DOE is remarkably trained. They look at our stuff all the 
time, and sometimes it's just a matter of DOE engaging, going 
over there and saying, hey, we're in charge of energy security, 
we can literally change this equation overnight, why is this 
taking so long? And it's a very political process over there, 
and that's really what I meant.
    Chairman Lamb. Thank you. And, with that, I yield to the 
Ranking Member, Mr. Weber.
    Mr. Weber. Thank you. Dr. Daniel and Ms. Schlenker, in your 
prepared testimonies, you highlight the importance of 
sophisticated materials science, enabling those tools like 
Argonne's Advanced Photon Source, APS, and Oak Ridge's 
Spallation Neutron Source, SNS, as well as the importance of 
providing updates, so sometimes the budget does count for a 
little bit, Mr. Coleman.
    So as you know, this Committee has a long, established 
history of providing strong bipartisan support for these key 
user facilities. So how critical, and we'll start with you Ms. 
Schlenker, in your opinion, are these resources to enabling 
innovative R&D in sustainable transportation?
    Ms. Schlenker. So I think that user facilities are a real 
gem of the National Laboratories, to allow access to scientists 
globally to come in to the facilities, and certainly for the 
U.S. researchers, and industry, to have access to the experts 
for those particular user facilities. In transportation, just 
as an example, for the Advanced Photon Source, we're looking at 
additive manufacturing as a new technique in transportation for 
component development.
    Mr. Weber. To make it lighter?
    Ms. Schlenker. To make it lighter----
    Mr. Weber. Stronger, lighter.
    Ms. Schlenker [continuing]. But it's really, trialing and 
putting layer after layer down in deposition, and to understand 
where the voids, and the fatigue, or the failure modes, might 
really be. So we've had a longstanding program with various 
OEMs (original equipment manufacturers) to use that particular 
facility. We look at fuel spray research from injectors out of 
an engine to try and reduce the emissions, and to have 
predictability within that.
    So just an example beyond the high-performance computing 
that we use all the time, and I want to give Claus some time on 
this, but those are just two big examples that I think of user 
facilities in transportation that are used on a daily basis.
    Mr. Weber. OK. And, Claus, she's kind of throwing the ball 
over to you.
    Dr. Daniel. Yes. Thank you, Ann, for that. Thank you, 
Ranking Member Weber, for the question. I think this is very, 
very important. The scientific user facilities at the National 
Labs are really the scientific backbone of our research 
community, and of the DOE system on there. You made it very 
clear, you said the APS, and the SNS, right? There's not two of 
them----
    Mr. Weber. Um-hum.
    Dr. Daniel [continuing]. Right? These are large tools. They 
require quite some investment to make them the way they are, 
and you don't repeat those investments as easily.
    Mr. Weber. And to sustain them, to use that 
sustainability----
    Dr. Daniel. Sustain them is also very expensive, yes. So 
what we do is we have trained experts who are world-renowned 
scientists, doing nothing but operating these facilities so 
they are ready to answer the scientific questions we have, and 
advance the technology. One example, for example, is here, when 
we come with an applied problem, where an automotive supplier--
this happened in Oak Ridge about 6 years ago, where we had a 
supplier to Ford come in with--it was a body-supplier, and 
they----
    Mr. Weber. What kind of supplier?
    Dr. Daniel. A body-supplier. It's a supplier who provides 
the body shell of the car.
    Mr. Weber. OK.
    Dr. Daniel. And there was a cracking problem at that body--
and the automotive company said, we cannot accept these any 
further. We need to shut down manufacturing lines, and we 
probably need to have some layoffs if we can't resolve that. 
Facilities like the user facilities are equipped to go all the 
way down to the atomic level and understand what is the 
problem. And we were able, in just 3 days' time, to resolve the 
issue, understand where it's coming from, and the company was 
able to then find a solution, and keep their workforce in 
business.
    Mr. Weber. And that was for Ford?
    Dr. Daniel. This was for a supplier to Ford.
    Mr. Weber. A supplier to Ford? OK. Well, good, that's a 
great story. Thank you. And a short amount of time left, this 
is actually for all witnesses, here on the Energy Subcommittee 
we like to talk about next-generation science and technology 
discoveries. What are some of the recent technology 
breakthroughs that could be considered next-generation 
discoveries in vehicle technologies? And then we'll jump over 
to hydrogen fuel research after that. But let's start with you, 
Mr. Cortes. What are some of the recent technology 
breakthroughs that you would consider next-generation 
discoveries?
    Mr. Cortes. So on the fuel cell side, on a stack level 
within the fuel cell, advances are being made with regard to 
the size, and the density, and the power performance of the 
actual stack, so that's allowing us to make the stacks, and the 
fuel cells themselves, much smaller, much lighter, and be able 
to generate more power. So that technology is really going to 
be crucial in order to improve and go, you know, help with the 
transportation, in terms of getting the additional power for 
the distances that you need to travel.
    Mr. Weber. Well, thank you, and I'm actually out of time, 
but let me jump to you real quick, Mr. Coleman. What do you 
say?
    Mr. Coleman. For the record, I am pro-budget. I'm very 
supportive----
    Mr. Weber. For the record? OK.
    Mr. Coleman. Very important, yes.
    Mr. Weber. I gave you a chance to redeem yourself.
    Mr. Coleman. Yes. Thank you. I appreciate----
    Mr. Weber. All right.
    Mr. Coleman [continuing]. That.
    Mr. Weber. I didn't want that to fuel any controversy.
    Mr. Coleman. I hear you.
    Mr. Weber. Yes.
    Mr. Coleman. On our side, we've been focusing on enzyme 
efficiency, so from a biorefining perspective, when you improve 
the enzymes, you're producing fuel and feed, you can squeeze 
more and more of each product out of every bushel of corn, or 
every whatever----
    Mr. Weber. OK.
    Mr. Coleman [continuing]. Right? And so that's where we've 
made a heck of a lot of progress.
    Mr. Weber. Perfect. And I'm out of time, but offline I want 
to talk to you about why you all can't get--you said--the EPA 
to give you--was it a permit or designation?
    Mr. Coleman. A registration.
    Mr. Weber. Registration? Thank you.
    Chairman Lamb. Thank you. Recognize Mr. McNerney for 5 
minutes.
    Mr. McNerney. I thank the Chairman, and I thank the 
witnesses. An excellent subject, good, interesting information 
that you're providing.
    Mr. Chen, in your testimony you mentioned that Rivian has 
several battery powered train and advanced technology research 
and development centers in California. What role do you believe 
that California's regulations have played in fostering 
innovation in that State? My State.
    Mr. Chen. I think they played a large role in fostering 
that, not only from the emission standards, but programs such 
as the ZEV Mandate, which really encouraged industry to start 
looking at alternatives like battery electric vehicles. In 
addition, on a less direct method, by being able to monetize 
credits from generation and production, and introducing to 
commerce zero emission vehicles, those types of programs have 
allowed manufacturers like Tesla, and soon Rivian, to be able 
to sell those emission credits to traditional manufacturers to 
help further fund the efforts by those startup manufacturing 
companies.
    Mr. McNerney. OK. What effect, do you think, rolling back 
the clean air rules for California is going to have on 
incentives for innovation in California, and in the United 
States in general?
    Mr. Chen. Frankly speaking, I think it sends absolutely the 
wrong signal. I think it's a step backward toward our movement 
toward greater fuel efficiency. Not just alternatives such as 
battery electric vehicles, but traditional technologies, 
basically internal combustion-equipped vehicles.
    Mr. McNerney. I see it the same way. Ms. Schlenker, you 
note in your testimony that the application of hydrogen as a 
fuel choice for U.S. industrial processes could be synergistic 
with fuel cell development. Could you expand on that a little 
bit?
    Ms. Schlenker. I think that some of the very energy-
intensive manufacturing processes that we have in the U.S., 
that could be iron, or----
    Mr. McNerney. Is you microphone on?
    Ms. Schlenker. Thank you. That could be iron, or it could 
be steel manufacturing, as an example, very energy intensive. 
And to be able to use hydrogen as a fuel source, expanding 
beyond natural gas, or other choices in today's market, we 
think that has some viability to help create that demand for 
the hydrogen infrastructure. As an example, we have renewable 
solar and wind today feeding back into the grid. At times, it's 
actually in surplus to what the grid can take. It goes into 
secondary battery storage for the grid. It has another use, 
where it actually could be combined with CO<INF>2</INF> and 
converted with electrolysis into hydrogen, or other fuel 
choices. So that's really what we're thinking through, is how 
to use hydrogen within industrial processes as well to help 
increase that demand, if you will, for the fuel cell vehicle 
technologies.
    Mr. McNerney. Excellent. Mr. Chen, I've read that rare 
earth materials will be a significant limitation to large-scale 
adoption of EV technology. Would you comment on that?
    Mr. Chen. Yes. Interestingly enough, and ironically, rare 
earth minerals are probably misnamed, because they aren't that 
rare. Where we really see a problem is supply constraint. Right 
now roughly 90 percent of all rare earth minerals are produced 
in a single country, China, and this has given them a near 
monopoly over the supply chain. There are certainly methods, or 
policies, that can be put into place to encourage the 
development of the extraction of these types of resources from 
places outside of China, including in the United States. To 
date, I'm aware of only a single operating facility that mines 
rare earth minerals in the United States. Certainly there is 
room for policies to encourage greater development here 
domestically.
    Mr. McNerney. Thank you. Whoever wants to answer, how does 
fuel cell technology compare to simple burning of hydrogen for 
efficiency?
    Mr. Cortes. On the actual fuel cell side, in terms of 
utilizing hydrogen to generate electricity, the fuel cells are 
about 50 percent, roughly, efficient, so we can actually create 
quite a bit of energy from a kilogram of hydrogen. With respect 
to others, I guess I would leave to somebody else, maybe, on 
the Committee that might be able to answer that, comparatively 
speaking.
    Mr. McNerney. Burning is going to be less than 35 percent, 
I can tell you. Thank you. Mr. Daniel, what about AI, 
artificial intelligence, for easing traffic, and other 
applications? Has this been proven, or is it still speculation?
    Dr. Daniel. Amongst the National Laboratories, we're 
working on utilizing artificial intelligence to solve these 
problems. Traffic problems are inherently complex problems, in 
which decisions are made by individual players as a small part 
of a large system. And in that regard, they're very difficult 
to control, and they're inherently hard to understand. We're 
using our supercomputing capabilities across the National Labs 
system to better understand what are the consequences of 
certain decisions, and how do they play together? We're working 
on some systems where we can do what we call faster than real-
time simulation, where we can do true predictions of a future 
traffic scenario based on knowledge of a system we have right 
now, and by doing so, then understand what control mechanisms 
are needed to really improve traffic, and reduce the chances of 
accidents happening.
    Mr. McNerney. Thank you. I yield back, Mr. Chairman.
    Chairman Lamb. Recognize Mr. Biggs for 5 minutes.
    Mr. Biggs. Thank you, Mr. Chairman. I appreciate all of you 
panelists for being here today. Mr. Chen, when you consider 
regulations, do you consider that there are regulations that 
are disincentivizing private industry investment in sustainable 
transportation R&D?
    Mr. Chen. I'm not aware of any regulation, per se. Do you 
have a particular example of----
    Mr. Biggs. I'm asking you to see, I mean, you're going to 
be more familiar than I am. So it's pristine, is what you're 
indicating?
    Mr. Chen. Well, there certainly are programs out there that 
encourage the adoption of alternative transportation 
technologies. And as I mentioned to the other Congressman, with 
respect to things like rolling back CAFE (Corporate Average 
Fuel Economy) and the greenhouse gas regulation, those are 
exactly the wrong signals. Government has always had a role to 
lead on innovation in areas of technology improvement, whether 
it be through emissions or safety----
    Mr. Biggs. But what I'm trying to get at is--and if I'm 
understanding--I'm trying to find out if there's any kind of 
government regulations that's actually impeding private sector 
development. And you said no, I think, is what you told me.
    Mr. Chen. Not exactly. There are certain areas of 
regulation that do have us locked into existing technologies, 
versus allowing us to foster other developments.
    Mr. Biggs. And that's what I would like to know more about. 
And before we run out of time, I'd ask if maybe, if that's the 
case, if you can either get together with me and my staff, or 
shoot me a memo, or something like that, whatever, in the areas 
that you think have locked us in.
    Mr. Chen. Yes, absolutely. I can do that.
    Mr. Biggs. OK. I appreciate that. So sustainability within 
the transportation sector is a reasonable goal, but this issue 
ought to be, in my opinion, championed by private sector, not 
the Federal Government, which is why I'm concerned with the 
legislation we're exploring today.
    The Vehicle Innovation Act authorizes appropriations of 
more than $1.6 billion over 5 years for research, development, 
engineering, demonstration, and commercial application of 
vehicles, and related technologies in the United States, which, 
interestingly enough, is roughly the amount of private equity 
investment in Rivian company, as reported in Mr. Chen's written 
statement. This sounds like an exciting opportunity for the 
transportation industry, but we have to be cognizant of the 
Federal budget constraints facing our country.
    And so I just want to cover two quick points before I leave 
here today. The question that I always ask myself is it 
appropriate for the government to transfer dollars taken by 
compulsion--which is what we do. When we tax, we are taking 
dollars by compulsion. There's nobody here that volunteers to 
do it. Every time we try to have a volunteer taxation program, 
it fails miserably, so we have to compel it. Should we take 
that compulsorily gained taxation and provide it to private 
companies and entrepreneurs to conduct research and 
development, even if it might provide an overall good? Now, 
some economists would argue that such transfers from government 
to private sector researchers incentivizes inefficiencies, 
suppresses private equity investment, and creates a path-
dependent, or increasing return regime that locks research 
development industry onto a sub-optimal path that inhibits 
movement to the most optimal paths of research and development.
    Several of you have mentioned today China, and I think we 
should always respect China has literally spent billions and 
tens of billions of dollars researching into these areas. But 
we must also understand, and make no mistake, China is a 
centralized authoritarian nation. They control the money, they 
control the economy. The leader of that nation, or if you 
decide that you think there's oligarchs running that nation, 
those leaders can seize and divest capital from market-driven 
priorities into government-sponsored priorities. We are 
competing with that. I recognize we're competing with that. But 
we have always believed, in this Nation, that a system of 
freedom of markets will produce innovation, and that will be a 
more nimble and quick approach and response, and actually be 
better in the long run.
    So, for me, I look at it, and I say, this is an interesting 
dilemma that we're always in. Do we take this money away from 
private individuals and transfer it to researchers and 
engineers who are on the cutting edge? There's no doubt you're 
on the cutting edge of technology. That is what I wonder about. 
I think about that often, and I think you can surmise where I 
come out. And, with that, my time is expired. Thank you.
    Ms. Stevens [presiding]. The Chair will now recognize Dr. 
Lipinski for 5 minutes of questions.
    Mr. Lipinski. Thank you, as we play musical chairs here. I 
want to thank all the witnesses for your testimony today. I've 
long been interested, and done a lot of work on autonomous 
vehicles. I know that's not what we're here to talk about, but 
I wanted to start out in talking about autonomous vehicles a 
little bit, because they do have an impact here on 
sustainability.
    First thing, though, in the FAST Act (Fixing America's 
Surface Transportation Act) reauthorization, I worked to 
include a provision to establish an inter-agency working group 
under DOT (Department of Transportation) to promote autonomous 
and connected vehicles. Do you believe that there is a need? Is 
this something that'd be helpful, when we're talking about 
sustainability, to have a similar inter-agency working group, 
or is there anything in particular you think--the idea is to 
have more coordination. Is more coordination needed on the 
issues of sustainability, or would that be a non-worthwhile--
just add another layer of bureaucracy? So does anyone have any 
thoughts on that? Ms. Schlenker?
    Ms. Schlenker. So I really welcome the question, thank you, 
because I think we can strengthen the relationship and the 
collaboration between the Department of Transportation and the 
Department of Energy. Typically Department of Energy will do 
early TRL (technology readiness levels) advanced research and 
development. DOT, in this space of smart mobility, smart 
communities, has been funding demonstration and deployment. 
DOE's doing a little bit of that, but DOT largely plays in that 
area. So to have a seamless integration and coordination 
between the two agencies to further the research, everything 
from data exchanges, data management, what are the ultimate 
questions we're trying to answer in a cohesive project across 
the agencies, I think would further all of us, and it would 
then allow transfer of that knowledge to other areas for best 
practice learnings. So I would certainly be all in favor of 
having some sort of formalized strengthened relationship 
between the two agencies.
    Mr. Lipinski. Anyone else have any thoughts on that?
    Mr. Cortes. Yes. So if you look at the Department of 
Energy's Hydrogen-at-Scale program, you really look at all the 
elements that are associated with that, the transportation 
portion is a key element of that entire ecosystem that's 
developed there. So having better coordination to help drive 
some of the projects and programs to be able to push that, and 
to have the scale that we're looking for, from a hydrogen 
generation standpoint, I think would really be key.
    Mr. Lipinski. Thank you. Mr. Chen?
    Mr. Chen. Yes, and I would say that there's certainly a 
need for coordination, including on the vehicle level. The 
example that I like to point to is that, under DOT NITSA 
(National Highway Traffic Safety Administration) regulations, 
Federal Motor Vehicle Standard 111, you have to actually have 
rearview mirrors, outside mirrors, and the provisions in the 
regulation actually use the word mirrors, to be able to provide 
that rearward view. We have shown in the past, both at Tesla 
and now Rivian, that, by getting rid of those mirrors, and 
using streamlined cameras, we can improve the aerodynamic 
efficiency of that vehicle by as much as 3 percent. However, 
that is locked into a DOT regulation. Having coordination 
between DOE and DOT to look at the benefits of modifying that 
regulation certainly would be helpful at the vehicle level.
    Mr. Lipinski. Thank you. Mr. Coleman?
    Mr. Coleman. I want to be mindful of your 5 minutes, but 
coordination is huge for us because it's not uncommon for our 
companies to be engaged across multi-agencies, and I think that 
there's a lot of efficiency to be gained from that as part of 
the mission for the group.
    Mr. Lipinski. All right. And, in my last minute here, I 
want to ask, Ms. Schlenker, at Argonne, has anyone done mild 
impacts of autonomous vehicles on congestion and emission?
    Ms. Schlenker. So across the National Laboratories we have 
a big program on smart mobility, and Argonne co-chairs that. I 
mentioned that Oak Ridge is a part of it as well, an important 
player. As we look at automating connected vehicles, we have 
sophisticated modeling tools, and we can do transportation 
modeling work to look at potential futures, traffic flow, 
looking at these new business models like Uber and Lyft coming 
in, e-bikes, e-scooters, transit, first mile, last mile 
challenges that we have. So all of that is included into our 
sophisticated transportation models. Beyond that, we do 
physical experiments on connected and automated vehicles, and 
understand what happens with active cruise control, or 
cooperative active cruise control, what the benefits really are 
on traffic flow, and congestion, and speed, as an example. So 
that is very active research for the Vehicle Technologies 
Office at large, and across the National Labs system.
    Mr. Lipinski. Thank you. My time's expired, I yield back.
    Ms. Stevens. Thank you. And the Chair now recognizes Dr. 
Baird for 5 minutes of questioning.
    Mr. Baird. Thank you, Madam Chair, and thank you, 
witnesses, for being here. Not sure I'll get to ask each one of 
you a question, but some of my questions relate to almost every 
one of you, I think. My ag background stimulates this question. 
I guess, Dr. Daniel, you may be a part of this, and, Ms. 
Schlenker, you may also want to respond. But I think the DOE 
Office of Science funds about four bioenergy research centers, 
if I'm not mistaken, and they conduct coordinated and 
geographically diverse research in support of developing a 
viable and sustainable domestic biofuel and bioproducts 
industry from dedicated bioenergy crops.
    In the biofuels research that is conducted at your labs 
through the Bioenergy Technologies Office, how often do you 
feel like you collaborate with or leverage the expertise of the 
Office of Science, and these bioenergy research centers, and 
what do you feel that collaboration is like? So how often do 
you collaborate, and how do you feel that works?
    Dr. Daniel. Thank you for the question. Yes, the Office of 
Science investments are very, very important for the success of 
our sustainable transportation program, and our innovations in 
vehicles and mobility systems. We regularly have interactions 
with those bioenergy centers. We regularly consult with the 
scientists in there. We even have scientists who are partially 
funded through those activities, and partially funded through 
our applied research facilities. That interaction, from the 
Office of Science to the Applied Research Program, and handing 
it off to the private sector, I think is really what makes us 
so strong, and what is really important for the National Labs 
system.
    Ms. Schlenker. A similar response, relative to the Office 
of Science and our biofuels research that we do at Argonne. In 
particular we're looking at feedstocks. We're looking at the 
opportunity, with membrane separations, and agricultural land 
use, as an example, and those conversion processes, and how you 
scale that, then, over into industrial and commercial 
processes, and even into the demonstration phase. So the 
linkage back to the Office of Science is really important to 
us, and their expertise in some of these fields is transferred 
directly over into the applied program.
    Mr. Baird. Thank you. Mr. Coleman, would you care to 
elaborate on some of the biofuels, bioenergy crops, that you're 
looking into, and where that stands?
    Mr. Coleman. So our industry, as you know, started with 
corn, because the corn--and by that specifically it's the 
inside of the kernel, right, because that's what is already 
fermentable, so the corn does the work of making a corn mash 
that's already fermentable. What's happening now is the 
industry is self-interested in feedstock diversity. Obviously 
they want to be able to not just be tethered to corn prices, 
but other feed stocks.
    Where it's gone in phase two is waste. So 70 percent or so 
of what's in an urban landfill is wood, paper, and cardboard, 
and so you have a tremendous amount of cellulosic material 
there, and then agricultural residues is corn fiber, corn 
stover, wheat straw, things like that. So the honest answer is, 
we're working through the waste-side because of the low 
feedstock costs, and we're at essentially to demonstration 
phase on the energy crop side. And a lot of that is really 
applying efficiencies to existing agricultural commodities to 
squeeze more product out of those products, efficiencies, and 
obviously better bottom line. Novazymes, for example, is very 
interested in alternative crops. Some of the miscanthus and the 
more exciting stuff you hear about on the side.
    Mr. Baird. Thank you. Mr. Chen, we've got about 48 seconds 
for two more--any thoughts on that?
    Mr. Chen. No, Congressman, not on those particular 
thoughts. Rivian's focused on electric vehicles. We're agnostic 
as to where the electricity comes from.
    Mr. Baird. Thank you. I didn't think so, but I thought I'd 
give you a chance. Mr. Cortes, do you have any thoughts, since 
it's in your DOE----
    Mr. Cortes. No, as far as, you know, the electricity from a 
hydrogen standpoint, that's really more the area that we're 
most interested, in terms of the generation, and green 
hydrogen, and having the supply where we need it to be to drive 
the demand.
    Mr. Baird. Thank you. My time's up, and I yield back.
    Ms. Stevens. And at this time the Chair would like to 
recognize Dr. Foster for 5 minutes of questioning.
    Mr. Foster. Thank you, Madam Chair, and thank you to our 
witnesses. Let's see, one of the many hats I wear here is co-
chair of the National Laboratories Caucus. I'd just like to say 
that we've been having CODELs (Congressional Delegations) to 
all of the DOE National Labs, and the reaction that we get from 
Members when they realize the tremendous amount of intellectual 
horsepower and technical horsepower there is really, I have to 
say, gratifying. And we're going to be coming soon to Argonne 
National Laboratory, and we will, I'm sure, be seeing some of 
what we're going to be talking about here.
    And one of the valuable things National Labs can do, as 
well as industry, is to look at the costs and the crossover 
points for different technologies. You know, for example, if 
you look at batteries, as they descend in cost, they become 
first viable maybe for automobiles, then later for long-haul 
trucks, later for--or maybe earlier for things like rail, that 
may be less weight sensitive, and eventually airplanes, when it 
all goes well. And so, you know, how much is known about what 
those crossover points are? You know, at what point are 
batteries cheap enough that really you sort of give up on the 
internal combustion engine? And we can try my hometown 
laboratory, Ms. Schlenker.
    Ms. Schlenker. So maybe I'll try and bail you out from 
answering on battery costs. So on electric vehicles, if we just 
reflect back maybe a decade, and for a 250-mile all-electric-
range electric vehicle, maybe that battery pack, and these, 
again, are estimates, was about $45,000. In a decade, we're 
down to about $17,000 for that battery pack. Where do we think 
we need to get for this cost parity crossover question, right? 
We think that range is really about the $7,000, at a pack 
level, which then informs DOE's goals on their battery research 
for their targets as they establish the dollar per kilowatt 
hour targets.
    With that said, though, we have to also remember that it's 
not just simply a one-component focus. You have to pay 
attention to that entire vehicle, right? So everything from the 
cost of gasoline, as compared to electricity, to insurance and 
repair, and manufacturing costs. All of those other things that 
play into the total cost of ownership. So we----
    Mr. Foster. Yes. And Argonne and others have been doing 
cost estimates for decades on the crossover, and so what we're 
now able to actually understand is, as you've ramped up 
electric vehicle production, there have been these cost 
estimates for how the economies of scale would kick in. And 
maybe Mr. Chen would be a better person to speak on this, you 
know, have things gone pretty much as expected? Have there been 
pleasant or unpleasant surprises for not the battery, but the 
everything else associated with electric vehicles?
    Mr. Chen. Yes, actually, there has been a substantial 
amount of progress in that regard. I think if you look back 10 
years ago, 2008 is when Tesla introduced the Roadster, and that 
was a two-seat sports car that had a battery pack that could 
run roughly 250 miles on a single charge, and that vehicle cost 
about $130,000. If you go to where we are today, Rivian will be 
coming out with its R-1T pickup truck, and it starts at a cost 
of $70,000 for a 105-kilowatt battery pack, so substantially 
more energy, roughly about the same amount of range as the 
Roadster back in 2008, but now you've got a vehicle that is 
substantially larger.
    So it's not just the battery cost, as you mentioned, 
Congressman, but it's also the efficiencies in the motor, it's 
lightweighting the materials, it's looking at the aerodynamics, 
and it's the energy density of that battery pack. And, through 
the entire course of the last 10 years, there has been 
substantial progress in all of those areas.
    Mr. Foster. So no disappointments in terms of--has anyone 
taken the time to look backward at the cost projections that 
were made a decade ago or two to see if your--because, you 
know, there's a danger here looking at the proponents' cost 
estimates, particularly for scaling and quantity.
    Mr. Chen. Yes. Absolutely. I'd say the biggest 
disappointment is we're not getting there fast enough. And, 
actually, this hearing is very timely because getting there 
fast enough is about reducing cost, and is about increasing 
energy density, and looking at new technologies.
    Mr. Foster. Yes. And, Mr. Cortes, how do fuel cells fit 
into this landscape of, you know, cost and performance?
    Mr. Cortes. Yes, it's really more about performance. So if 
you look at--and we think about things as not as an either/or, 
it's an and. There are very good places where--and applications 
where batteries work really well. When you talk about long 
haul, or range and distance, at some point, when you have a 
battery, in order to increase the distance, you have to add 
more batteries. When you add more batteries, you're adding more 
weight. And at some point it becomes difficult.
    And, for us, there's a crossover point from a performance 
standpoint, where fuel cells provides that additional range 
without that additional burden of the weight. It's more of can 
you add a larger tank to house the additional hydrogen needed 
to be able to do that? So there's applications that are really 
well-suited for batteries, and then there's applications that 
are really well-suited for long haul, and delivery vans and 
things like that where now the payload becomes a critical 
aspect.
    Mr. Foster. All right. Thank you, and I guess my time is up 
at this point.
    Ms. Stevens. And now, also from the great State of 
Illinois, the Chair would like to recognize Mr. Casten for 5 
minutes of questioning.
    Mr. Casten. Thank you. Technically it's the greatest State, 
especially with so many folks from Illinois here. So thank you 
very much. Thank you all for coming. A couple questions, and 
the first is a question that just always puzzled me a little 
bit. My first car was an 1984 Honda Civic, super nice car. It 
had an AM/FM radio. I think it had a tape deck. I know it had a 
rear defroster, and it had headlights. I'm not sure what other 
electric loads were on that car. And, you know, to buy a new 
car today you've got, you know, GPS, you know, XM satellite 
radio, heated front and rear seats, maybe a heads up display on 
the dashboard, all the new stuff that's coming out. Drive by 
wire auto parking, you know, automatic driving. Can you just 
help me understand, Dr. Daniel, I'm curious, number one, you 
know, I know we've gone from 12-volt batteries to 24-volt 
batteries, and--alternators. What is happening to the onboard 
electric loads in the vehicle, and is there any reason to 
believe that that trend is saturating, or is that just 
continuing in perpetuity?
    Dr. Daniel. Yes, thank you for that question. I think 
that's a very timely question. When we look at the changes 
happening in the mobility segment there, I believe that current 
vehicles, vehicles that have an operator, and where a driver is 
doing most of the work, those auxiliary loads are not quite as 
critical, unless it is in an area like an electric vehicle, 
where every electron counts, right? That's something we really 
have to look for, and the Department of Energy is looking 
particularly at research--how can I reduce those loads? But 
where it really changes the game is when we look at connecting 
automated vehicles, vehicles that drive themselves, 
potentially, vehicles that need to make decisions based on 
perception around them. We believe that the auxiliary loads at 
that point will go through the roof. And that's something where 
we have no technical solutions right now for, and we need to 
dramatically reduce the energy consumed by sensors and 
processing units for those vehicles.
    Mr. Casten. So without asking you to guess on a time, is it 
reasonable to conclude that at some point just the features 
that consumers want on a car is going to make electrification 
substantially inevitable?
    Dr. Daniel. I don't know if I can draw that conclusion 
inherently, but energy efficiency of those components becomes 
very, very critical. We're seeing very high demands. Some 
people estimate that in a connected automated vehicle we're 
having, like, 3 kilowatts of usage for sensors and computing.
    Mr. Casten. Um-hum.
    Dr. Daniel. Some people put that number as high as 5 or 7 
kilowatts.
    Mr. Casten. OK. Can I at least conclude that getting to 
some level of plug-in electrification is going to be 
inevitable, just given the voltage and the efforts that we made 
on cars?
    Dr. Daniel. I believe some electrification will certainly 
be helping there, but I think there are other reasons why we 
would want to electrify, not necessarily just the----
    Mr. Casten. Sure.
    Dr. Daniel [continuing]. The autonomous----
    Mr. Casten. Yes, of course.
    Dr. Daniel [continuing]. Side of it.
    Mr. Casten. Of course.
    Dr. Daniel. Absolutely. Yes.
    Mr. Casten. So then I get the question, and this is for, 
you know, I guess for Mr. Chen in the first instance, there was 
this political article, I think last week, about the oil 
companies working very hard behind the scenes to slow--
essentially deployment of charging infrastructure. What are you 
seeing, and what are the specific concerns you have that we 
should be watching for? Because if, in fact, for all the 
reasons, whether consumer driven or environmental driven, you 
know, the reasons you mentioned, if we know we're going to need 
that charging infrastructure, what are the barriers that you 
see that we should be thinking about, even beyond the scope of 
this Committee, to make sure that we get that charging 
infrastructure out there, given that the oil companies seem to 
be working hard to prevent it from happening?
    Mr. Chen. Yes. I did read that article, and, to be honest, 
I was a little bit annoyed by that article, because they 
continued to cite a study, I believe it may have been out of 
the UK, but that study has been long debunked. It basically was 
the conclusion that electric vehicles were less efficient than 
gasoline-powered vehicles. And, again, that study has been 
thoroughly debunked by scientists.
    In answer to your question, I think what the Committee 
should be looking out for is the accuracy of this type of 
information, and the interests of those who oppose the 
deployment of electric vehicles in fostering American 
innovation. What are the goals behind that? Why are they really 
coming at this angle? As we look toward how we invest American 
taxpayer dollars into technology, this Committee needs to make 
sure that those dollars are invested wisely, and based on solid 
information, and sound science.
    Mr. Casten. OK. Well, I'm out of time, but if you have any 
information specifically about the charging infrastructure, of 
where we should be looking, I'd very much appreciate it.
    Mr. Chen. Absolutely.
    Mr. Casten. Thank you. I yield back.
    Ms. Stevens. The Chair now recognizes Mr. Tonko for 5 
minutes of questioning.
    Mr. Tonko. I get to go ahead of the sitting Chair. Thank 
you. Thank you. Wow, I like it here, you know? So thank you, 
Madam Chair, and thank you to the Subcommittee for holding this 
hearing, and thank you to our witnesses for the expert 
testimony that you provide so we can discuss sustainable 
transportation. I hope the Federal Government can play a 
positive role in moving the research and the field forward.
    As I mentioned earlier, I am so proud to represent the 
Capital Region of New York, which is home to many innovative 
companies, including Plug Power. Plug Power continues to be a 
leader in the innovation economy. Last month, indeed, I had the 
opportunity to join them in celebrating the partnership amongst 
Plug Power, the United States Department of Energy, FedEx, and 
Charlotte, and Albany Airport to power highly efficient fuel 
cell-powered ground support equipment through a DOE-funded 
program, a great feat. So, Tim, congratulations again on that 
success.
    In your written testimony, you talk about the DOE market 
transformation being a key to your success. Can you tell us a 
little more about how it was successful, and how it is leading 
to additional sustainable transportation technology 
developments with project partners?
    Mr. Cortes. Yes. Thank you for the question. Yes, in 2008 
we were awarded the program that allowed us to deliver several 
hundred fuel cells to customers. At the time it was really good 
timing for the program to come to us, because it was at the 
point where we were just about to introduce that product to the 
marketplace. And what it really did was--it allowed Plug to 
seed several units with customers to get them to be able to 
have an understanding of the technology, understand how to use 
it, understand the value that it brought to them, and their 
organization, and their operations, and the ability to actually 
take advantage of that in the application to make sure they 
understand all of the performance aspects, any safety concerns 
that they had, and it really was, you know, a program that 
allowed them to do trials, if you will, without having to spend 
significant amount of money for infrastructure, and to, you 
know, to make a huge commitment on theirs. So it really 
provided them the avenue to test the technology, and prove it 
in within their own operations.
    Mr. Tonko. Thank you for that. And what do you think the 
DOE could do to better strengthen the partnership with the 
industry? How do we make sure that the U.S. keeps our 
leadership in hydrogen and fuel cells in the global 
marketplace?
    Mr. Cortes. That's a really good question. I think the DOE 
does a really good job when it comes to the pure R&D, and the 
funding for the labs, and the great work that they're doing. I 
think some of the areas that could really help with bringing 
some of these technologies to market, and driving the growth 
with regard to these technologies, both for fuel cells and 
hydrogen, is ensuring that there's an appropriate amount of 
funding and programs for some advanced demonstrations.
    I mean, at some point you have to take the hard work, and 
all the findings from the lab that was done, and determine how 
do you scale, how do you take it to practice to then be able to 
implement it on a commercial standpoint? So there's a chasm 
there that exists that would really be good if there was a 
certain percentage of the DOE dollars not just for the hard 
research and the R&D, but also to be able to bridge those gaps.
    Mr. Tonko. Thank you. Can you speak to the current supply 
and demand for hydrogen, and how it affects hydrogen fuel cell 
integration into the commercial market?
    Mr. Cortes. Yes. So supply of hydrogen, as it relates to 
the hydrogen that can be used by fuel cells, has been very flat 
over several years, and the demand that we've seen, both from 
our marketplace, as well as light-duty retail vehicles, has 
really started to go up. So the concern that we have is at some 
point that demand is going to, if things aren't done 
differently, outstrip some of the supply. And what that does is 
it creates a scenario for the application and the market to be 
very concerned about, if I'm going to go and invest in these 
technologies, and I'm going to spend money, what's going to 
happen if I don't have that supply of hydrogen to be able to 
continue to use my products?
    It's like--when you and I go buy a car, we don't worry 
about, you know, where the gasoline's going to come from. It's 
ubiquitous, it's everywhere, and so it's not a care for us. But 
if you're worried about supply, and it's not readily available, 
it makes you think twice, and then the adoption rate then 
becomes a difficult factor.
    Mr. Tonko. And you state in your testimony that Plug Power 
participates on the Hydrogen Council, a global hydrogen fuel 
initiative, which estimates that hydrogen could help cute 
global CO<INF>2</INF> emissions by as much as 20 percent by 
2050. Can you just explain quickly how hydrogen fuel technology 
adaptation could help achieve this goal?
    Mr. Cortes. Yes, absolutely. So, you know, a byproduct of 
fuel cells is basically electricity, but there's also a small 
amount of heat and water. There's no emissions, so it's not 
like a combustion engine that's putting out emissions. And if 
you couple that with fuel from hydrogen that could be generated 
from hydroelectric, wind, solar, then you've got, you know, a 
clean source of hydrogen going into the unit, and you've got a 
generation of electricity powering equipment with no emissions 
and no byproducts.
    Mr. Tonko. Wonderful. Thank you so much. Madam Chair, you 
have been generous. Thank you. I yield back.
    Ms. Stevens. And the Chair would now like to recognize 
herself for 5 minutes of questioning.
    Mr. Chen, in your testimony, you specifically mention rare 
earth minerals. My colleague, Mr. McNerney, also talked about 
this in his questioning to you as an area where battery 
technology developers in the United States are sort of at the 
mercy of China, and an example of how foreign dominance is an 
impediment to the development of electric vehicle technology. 
In addition to the availability of rare earth minerals, and 
potentially dovetailing from some of the line of questioning 
that my colleague, Mr. Tonko, was asking of Mr. Cortes, what 
are some of the other long-term impediments you see to electric 
vehicle adoption in the U.S. market?
    Mr. Chen. Thank you for the question. That's actually a 
pretty broad question, and I would have a long laundry list of 
things that could certainly hamper deployment of electric 
vehicles. I think I have to go back and look at the demand side 
of this, and say that there are still concerns amongst 
consumers about understanding electric vehicles. The cost, the 
charging infrastructure, the maintenance requirements. I really 
think a lot of the impediment is education to the public and 
the infrastructure.
    Ms. Stevens. So why does a company like yours exist?
    Mr. Chen. Well, without trying to sound glib, I mean, it's 
simply the right thing to do. A company like Rivian exists 
because our founder, and every member of our company, believes 
in this technology, in the fact that, you know, our mission is 
to or allow the world to continue to be adventurous. It does 
not make sense to go out into these pristine areas of the world 
and do so in a vehicle that is spewing criteria pollutants and 
creating greenhouse gas emissions. So, quite simply, we believe 
humanity should be out there and enjoying the world, and 
everything it has to offer, but minimizing that footprint as 
much as possible.
    Ms. Stevens. Well, and certainly others agree with you, 
given the continued investments being made from outside 
investors in your company. I am so delighted that you're 
located in Plymouth, in the old Boroughs plant, and it is 
certainly an exciting and vibrant atmosphere that I think is 
speaking to the demand that exists not only here in the United 
States, but around the world.
    And, I was wondering, could you shed any light in terms of 
some of the global competitiveness that you see that we have 
here in the United States, as compared to countries who maybe 
are making some more prominent and pronounced investments in 
electric vehicle technology, and where does that leave our 
consumer base, versus what we're seeing internationally?
    Mr. Chen. Sure. So, as you mentioned accurately, there is a 
high demand for our products. We've had several events where 
we've had folks come out and see the vehicles, and generate a 
lot of excitement and a lot of buzz. That all said, I think the 
United States has a long way to go still on electric vehicle 
technology investment. What was mentioned earlier in my 
testimony, and through a line of questionings, about other 
countries, China in particular was mentioned as investing $60 
billion a year into electric vehicles not just to seed the 
market, but for manufacturing and technology. So I certainly 
think there is a role for the U.S. Government to play in 
investment, and certainly looking at how to foster this 
technology.
    Ms. Stevens. Yes. And, with that, I'd love for our labs to 
chime in here as well, and maybe talk a little bit more, in 
addition to what was so pronounced in your testimony, but how 
you see yourself interacting with companies like Rivian, and 
the technology demand today, and in the future, and what would 
be required of us to continue to support you and your lab 
efforts? Ms. Schlenker, if you would like to start, we'd love 
to hear from you.
    Ms. Schlenker. So as we think about electric vehicles, and 
of course, the infrastructure has to come along with it, but 
it's really a dance, where you have to have good utilization of 
that infrastructure at the same time the market is there for 
the consumer pull of the vehicle. And lots of different models 
available now in electric vehicles. It's wonderful to satisfy 
that market, but really addressing some of those infrastructure 
challenges still. Everything from faster charging, as I talked 
about, medium duty, heavy duty at a megawatt. We are seeing 
successes with mass transit buses now, when you stop to think 
about the big 40 passenger bus, and they're being electrified. 
Chicago, New York, many other cities as well. That's a real 
win, where all of a sudden that technology is cost competitive 
to what previously was a natural gas or other biofuel vehicle.
    Dr. Daniel. Yes, thank you for the question on that. I'm 
actually really excited to hear about some of the anxieties 
about the rare earth materials because I believe we can provide 
technical solutions on there, that maybe those might not be 
needed as much as they currently are in the future anymore.
    So, as an example, we have developed motor technology in 
the National Labs system at Oak Ridge National Laboratory with 
ferrite magnets in them. They don't need rare earth materials 
in them. Those are potential solutions. In order to solve some 
of the problems of rare earth supply, some of those issues in 
the United States is that waste processing is a big problem. So 
if you mine neodymium, for example, 90 percent of what comes 
out of that mine is cerium. We have developed a use for cerium 
in a new alloy which can be utilized, and, therefore, with the 
potential application of that waste product, the cost of 
providing neodymium has the opportunity to drop.
    And my last comment on that is we're working with two other 
National Laboratories together in an electric drive 
technologies consortium, where we have the goal by 2025 to 
reduce the combined size of the power electronics and electric 
machinery component for an electric vehicle, to reduce that by 
a factor of eight compared to what's currently in vehicles in 
there. All of those technology developments will have a 
dramatic positive impact.
    Ms. Stevens. And, with that, I yield back the remainder of 
my time, and would maybe like to pass this over to our--OK. 
Well, we'll say this, that this hearing is absolutely 
essential, and we thank our partners from the labs who have 
joined as members of the audience today, and we also thank our 
industry partners, as well as our consortium partners in a 
topic that is most assuredly going to continue to evolve and 
capture the imagination of our country.
    And in regions like where I represent, I think the big 
question around the moon shot for the next 50 years is couched 
within our ability to get to electric vehicles, and get to zero 
emissions, and how we do that, and why we do that, continues to 
drive us forward. So know that the history of today's hearing, 
the great leadership that we have from Chairman Lamb, and the 
incredible colleagues that I have the privilege of serving on 
this Committee with will continue to carry the ball forward, 
and develop legislation that will advance the work of our labs, 
and assist the charge to bring electric vehicles, and the 
infrastructure, to proliferate them into the marketplace as 
part of our legislative portfolio. So thank you all so much for 
being here.
    The record will remain open for 2 weeks for additional 
statements from Members, or for any additional questions that 
Committee Members may have of the witnesses. At this time the 
witnesses are excused, and the hearing is now adjourned.
    [Whereupon, at 3:53 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
